   DEPARTMENT OF HOMELAND SECURITY

       Office of Inspector General


        A Review of DHS’ Responsibilities
               For Juvenile Aliens




   Office of Inspections and Special Reviews

OIG-05-45                   September 2005
                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528




                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared by our office as
part of our DHS oversight responsibilities to promote economy, effectiveness, and efficiency within
the department.

This report examines the treatment of juveniles who are apprehended and initially detained by DHS
components. It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, statistical analyses, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this report
will result in more effective, efficient, and economical operations. We express our appreciation to all
of those who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Inspector General
Table of Contents


   Executive Summary.........................................................................................................................1

   Background ......................................................................................................................................3

   Results of Review ..........................................................................................................................11

           Apprehension and Immigration Processing of Juvenile Aliens ............................................11
                 Juveniles’ Access to Legal Counsel.............................................................................11
                 Varying Conditions of Confinement at CBP Facilities................................................12
                 Juveniles’ Time in DHS Custody ................................................................................15
           Longer-Term Detention of Juvenile Aliens ..........................................................................18
                 Need for Additional Family Shelters ...........................................................................19
                 Placement Determinations for Unaccompanied Juveniles...........................................21
           DHS Management and Oversight of Juvenile Alien Responsibilities ..................................23
                 Delineation of Interagency Juvenile Program Responsibilities ...................................23
                 Need to Formalize Oversight Responsibilities of Juvenile Alien Program .................27
           Status of 2001 DOJ OIG Report Recommendations ............................................................28
                 Continuing CBP and ICE Training Program on Treatment of Juveniles.....................28
                 Records of Transportation and Custody of Detained Juveniles ...................................29
                 Escorting Juveniles Until Release to a Sponsor...........................................................31

   Management Comments and OIG Analysis ..................................................................................31

Figures

   Figure 1: Seven Border Patrol Sectors with the Highest FY 2004 Juvenile Apprehensions ........4
   Figure 2: Separation and Monitoring of Juvenile Aliens at 13 CBP Facilities ...........................13

Diagrams

   Diagram 1:             General CBP and ICE Process for Juvenile Aliens ..............................................10

Appendices
   Appendix A:            Purpose, Scope, and Methodology .......................................................................38
   Appendix B:            Management Response to Draft Report ...............................................................41
   Appendix C:            Major Contributors to this Report ........................................................................48
   Appendix D:            Summary of Flores Stipulated Settlement Agreement.........................................49
   Appendix E:            Statement of Principles Between the Department of Homeland Security and
                          the Department of Health and Human Services, Unaccompanied Alien
                          Children Program .................................................................................................51
   Appendix F:            Report Distribution...............................................................................................53


                                              A Review of DHS’ Responsibilities for Juvenile Aliens
Abbreviations

   ADR          Alien Detention and Removal, DRO
   ANSIR        Automated Nationwide System for Immigration Review
   BTS          Border and Transportation Security
   CBP          Customs and Border Protection
   DACS         Deportable Alien Control System
   DHS          Department of Homeland Security
   DOJ          Department of Justice
   D&R          Office of Detention & Removal, INS
   DRO          Detention and Removal Office, ICE
   ENFORCE      Enforcement Case Tracking System
   EOIR         Executive Office for Immigration Review, DOJ
   FBI          Federal Bureau of Investigation
   FLETC        Federal Law Enforcement Training Center
   FOJC         Field Office Juvenile Coordinator
   FY           Fiscal Year
   HHS          Department of Health and Human Services
   HSA          Homeland Security Act of 2002
   ICE          Immigration and Customs Enforcement
   IEA          Immigration Enforcement Agent
   INS          Immigration and Naturalization Service
   MOU          Memorandum of Understanding
   OIG          Office of Inspector General
   OJA          Office of Juvenile Affairs, INS
   ORR          Office of Refugee Resettlement, HHS
   OTM          Other Than Mexican
   POE          Port of Entry
   P.L.         Public Law




                           A Review of DHS’ Responsibilities for Juvenile Aliens
OIG
Department of Homeland Security
Office of Inspector General


Executive Summary
                         The implementation of the Homeland Security Act (HSA) on March 1, 2003,
                         significantly reorganized federal responsibilities for juvenile aliens. 1 Before
                         the HSA, the former Immigration and Naturalization Service (INS) was
                         responsible for all aspects of apprehending and detaining juvenile aliens. The
                         HSA divided those responsibilities between two separate federal departments.

                         In implementing the HSA, the Department of Homeland Security (DHS)
                         assigned its juvenile-related responsibilities to the Bureaus of Customs and
                         Border Protection (CBP) and Immigration and Customs Enforcement (ICE).
                         Both were given responsibility for apprehending, processing, and transporting
                         juvenile aliens. ICE’s Detention and Removal Office (DRO) became
                         responsible for housing juvenile aliens who were apprehended with family
                         members and primarily for transporting apprehended juveniles to longer-term
                         detention facilities.

                         We reviewed the effectiveness of the coordination between CBP and ICE after
                         CBP apprehends and initially holds juvenile aliens. Our review included the
                         process by which CBP informs ICE DRO that a juvenile alien was
                         apprehended, the process for transferring the juvenile alien to ICE DRO
                         custody, and the effectiveness of the current system for transferring care and
                         custody of unaccompanied juvenile aliens to the Department of Health and
                         Human Services (HHS). In addition, we assessed the progress of relevant
                         DHS components in implementing three open recommendations from a prior
                         Department of Justice (DOJ) Office of the Inspector General (OIG) report. 2

                         We concluded that DHS adhered to its responsibilities for treating
                         apprehended juvenile aliens with dignity and concern. The department is
                         proficient in key areas of apprehending and processing juvenile aliens,
                         prioritizing processing and transportation of juveniles after they are
                         apprehended, and providing appropriate information to juveniles on their legal

1
  P.L. 107-296, § 462. On November 25, 2002, President Bush signed the Homeland Security Act of 2002 into law,
thereby creating the Department of Homeland Security.
2
  Unaccompanied Juveniles in INS Custody, Department of Justice, Office of the Inspector General, I-2001-009,
September 28, 2001.


                                       A Review of DHS’ Responsibilities for Juvenile Aliens

                                                              Page 1
                          rights. Generally, the department placed juvenile aliens in longer-term
                          housing facilities in a timely manner.

                          While our overall assessment for this review is satisfactory, areas needing
                          departmental attention include:

                          •    CBP personnel generally provided adequate access to counsel for
                               apprehended juvenile aliens. While lists of pro bono attorneys were
                               maintained by a non-DHS agency, information on the lists given to
                               juveniles was not consistently accurate.

                          •    The time which juvenile aliens spent in confinement at CBP facilities
                               varied significantly. There is no CBP-wide policy for reviewing and
                               approving the extended holding of juveniles and for reporting these events
                               to appropriate CBP officials.

                          •    Accompanied juveniles (those apprehended with their families) were
                               separated from their families due to space limitations in “family unity”
                               shelters.

                          •    DHS and HHS have not forged a sufficiently detailed agreement on their
                               respective responsibilities for unaccompanied juvenile aliens.

                          •    It is essential that DHS clearly assign the authority for overseeing the
                               range of its responsibilities for juvenile aliens and for serving as an
                               organizational liaison.

                          •    Training programs delineated in the Flores Stipulated Settlement
                               Agreement are insufficiently implemented and custodial records for
                               juveniles continue to be irregularly completed and maintained. 3

                          We are making eight recommendations to the Undersecretary, Border and
                          Transportation Security, to improve the management of the juvenile alien
                          program.




3
  Reno v. Flores, 507 U.S. 292 (1993) (hereafter “Flores”). Flores, a class action lawsuit, was filed against the INS
challenging the agency's arrest, processing, detention, and release of juveniles in its custody. The case involved
unaccompanied minors who entered the United States illegally and were subsequently detained by the U.S. government.
In August 1996, the parties to the lawsuit negotiated a settlement, known as the Flores Stipulated Settlement Agreement,
in which the INS agreed to follow various stipulations for processing and detaining juveniles held in its custody. See
Appendix D for a summary of the Flores Stipulated Settlement Agreement.


                                         A Review of DHS’ Responsibilities for Juvenile Aliens

                                                                Page 2
Background
                           Juvenile aliens represent a particularly vulnerable and special population.
                           Those apprehended and detained by DHS fall into two categories:
                           accompanied and unaccompanied. The HSA defines an unaccompanied
                           juvenile alien as an alien who is in the United States illegally, has not attained
                           18 years of age, and who either has no parent or legal guardian in the United
                           States or has no parent or legal guardian in the United States available to
                           provide care and physical custody. 4 An accompanied juvenile alien has a
                           parent, legal guardian, or other immediate adult relative who is with the
                           juvenile when he or she is apprehended. 5

                           Juvenile Alien Apprehensions

                           CBP apprehended almost 1.9 million illegal immigrants in the United States in
                           Fiscal Year (FY) 2004. Also, CBP reported that the 1.9 million alien
                           apprehensions included 122,122 juveniles (6.4 percent). 6 Of this total,
                           101,731 juveniles (83.3 percent) were Mexican nationals and 20,391 juveniles
                           (16.7 percent) were Other-Than-Mexican (OTM) nationals. 7

                           Most apprehensions of juvenile aliens occur in rural areas along the border
                           with Mexico. Of the 122,122 juvenile apprehensions, the Border Patrol made
                           103,496 (84.7 percent) along the Southwest border. The Tucson Border Patrol
                           sector apprehended 48,272 juvenile aliens (39.5 percent of all juvenile
                           apprehensions) - the largest number of juvenile aliens apprehended in any
                           Border Patrol sector. The seven Border Patrol sectors with the most juvenile
                           alien apprehensions are all along the Southwest border.




4
  P.L. 107-296, § 462.
5
  Detention and Removal Officer’s Field Manual, Appendix 11-4: Juvenile Protocol Manual, November 2003.
6
  According to the ICE Director of the Office of Immigration Statistics, ICE investigators also enter data on juvenile
aliens apprehended in the U.S. interior into ENFORCE. However, due to system limitations, ENFORCE does not
uniformly capture the agency (CBP or ICE) which initially apprehended the juvenile.
7
  CBP’s ENFORCE system does not specifically designate whether apprehended juveniles are accompanied versus
unaccompanied.


                                          A Review of DHS’ Responsibilities for Juvenile Aliens

                                                                 Page 3
                                   Figure 1. Seven Border Patrol Sectors with the Highest FY 2004 Juvenile
                                                              Apprehensions

                                               Border Patrol Sector              Number of Apprehensions
                                                   Tucson, AZ                            48,272
                                                  McAllen, TX                            13,023
                                                   El Paso, TX                           12,042
                                                    Yuma, AZ                              8,689
                                                   Laredo, TX                             7,480
                                                 San Diego, CA                            7,382
                                                   Del Rio, TX                            6,608
                                                      Total                             103,496

                            The vast majority of juveniles apprehended by CBP are not placed into
                            immigration proceedings by DHS. In FY 2004, 103,274 juveniles (84.6
                            percent of all apprehended juveniles) were released back across the U.S.
                            border to Mexico, or in rare cases to Canada. This process is called a
                            Voluntary Return. 8 The Border Patrol subjected 94,695 juveniles (77.5
                            percent of all apprehended juveniles) in FY 2004 to a Voluntary Return. 9

                            Nationally, the Border Patrol apprehended 86,606 juvenile aliens in FY 2003.
                            Border Patrol juvenile apprehensions in FY 2004 (109,285) were 26.2 percent
                            higher than in FY 2003.

                            Organizational Responsibilities

                       •    Juvenile Alien Program Under the Former INS

                            Prior to implementation of the HSA in March 2003, INS was the primary
                            agency that apprehended, transported, detained, and removed juvenile aliens
                            who were unlawfully present in the United States. Within INS, the Office of
                            Juvenile Affairs (OJA) was responsible for the Juvenile Detention and Shelter
                            Care Program. OJA was originally part of the INS Office of Detention and
                            Removal (D&R) at INS Headquarters. OJA responsibilities included:

                                Ø policy planning decisions regarding juveniles;
                                Ø developing juvenile facility contracts and services with juvenile
                                  housing facilities;
                                Ø oversight of those juvenile facilities;
                                Ø developing regulations to reflect INS policy relating to unaccompanied
                                  juveniles;
                                Ø providing operational oversight to Field Office Juvenile Coordinators;


8
    The Voluntary Return process is discussed in detail later in this section.
9
    CBP officers at POEs conducted Voluntary Returns on 8,579 juveniles in FY 2004.


                                          A Review of DHS’ Responsibilities for Juvenile Aliens

                                                                 Page 4
                             Ø training INS personnel on the proper handling of unaccompanied
                               juveniles; and
                             Ø coordinating transportation with INS D&R for transfers, placements,
                               and removals of juvenile aliens.

                         The INS National Juvenile Coordinator, who was the head of OJA, directed
                         the INS Juvenile program. As of December 2002, OJA had an operating
                         budget of $31.6 million and ten staff assigned to INS headquarters, including
                         an office director and the National Juvenile Coordinator. 10

                         The National Juvenile Coordinator within OJA had direct authority over INS
                         field personnel in decisions related to the proper handling of juveniles. These
                         decisions included the placement of juveniles in INS-funded facilities, their
                         transfer to other facilities, and their release from INS custody. 11 Three
                         regional juvenile coordinators, who reported organizationally to the respective
                         regional heads of D&R, were responsible for overseeing and monitoring 33
                         district juvenile coordinators in their respective regions. In addition to
                         reporting to the regional heads of D&R, the 33 district juvenile coordinators
                         and the three regional juvenile coordinators also reported to the National
                         Juvenile Coordinator regarding placements, transfers, and releases of
                         juveniles. D&R was responsible for both accompanied and unaccompanied
                         juveniles.

                         The National Juvenile Coordinator and the regional juvenile coordinators
                         managed the placement and transportation of juvenile aliens between INS
                         districts and regions. The district juvenile coordinators were responsible for
                         juveniles in custody in their jurisdictions, including the respective Border
                         Patrol sectors.

                         Following criticism of the program’s operation, the INS Commissioner
                         transferred OJA from D&R to the INS Commissioner’s office in October
                         2002. This elevation was intended to provide OJA with high- level, direct
                         authority over all operations of INS’ juvenile program and increased
                         accountability for the care and treatment of juveniles.

                     •   Reorganization of the Juvenile Alien Program after the HSA

                         With the implementation of the HSA on March 1, 2003, responsib ility for
                         apprehending and providing initial care and detention for juvenile aliens was
                         split between CBP and ICE. Both have authority for making arrests,
                         completing administrative processing, and making initial enforcement

10
  Office of Juvenile Affairs Operating Budget, December 2002.
11
  Pogash, John, Unaccompanied Alien Children in Federal Custody, Presentation to the Coordinating Council on
Juvenile Justice and Delinquency Prevention, December 3, 2004.


                                       A Review of DHS’ Responsibilities for Juvenile Aliens

                                                              Page 5
                        determinations, such as repatriations and releases to family members. 12 Both
                        transport juvenile aliens after processing at CBP or ICE facilities to approved
                        juvenile facilities, too.

                        The implementation of the HSA transferred responsibility for the care and
                        housing of unaccompanied juvenile aliens to the Office of Refugee
                        Resettlement (ORR), an HHS agency. ORR became responsible for the care
                        and placement of unaccompanied juveniles, including facility placement
                        decisions, releases to a sponsor pending immigration proceedings, and
                        transportation of juveniles for medical reasons, court appearances, or transfers
                        to subsequent facilities. In addition, DRO juvenile program funds for
                        transporting and detaining unaccompanied juvenile aliens were transferred to
                        ORR.

                    •   CBP and ICE Responsibilities after the HSA

                        CBP apprehends and processes almost all juvenile aliens. Border Patrol
                        agents stationed at Border Patrol stations and CBP officers at Ports of Entry
                        (POEs) apprehend and process juvenile aliens. CBP facilities are designed to
                        hold juveniles on a short-term basis during the processing phase. In addition,
                        Border Patrol agents and CBP officers regularly transport juvenile aliens from
                        the CBP facility after processing to subsequent ICE DRO or ORR longer-term
                        detention facilities.

                        ICE has authority to arrest juvenile aliens inside the United States who violate
                        U.S. immigration laws. ICE DRO generally is responsible for transporting
                        juvenile aliens from CBP facilities, such as a POE, to initial DRO or ORR
                        facilities. In addition, ICE DRO removes juvenile aliens with expedited or
                        adjudicated removal orders from the United States.

                        While ICE DRO has a National Juvenile Coordinator, it does not have a
                        dedicated juvenile program office similar to the OJA under the former INS
                        Commissioner. The National Juvenile Coordinator develops juvenile policy
                        and serves as a liaison with other DHS components, ORR, and volunteer
                        agencies. The National Juvenile Coordinator is relegated to a position within
                        DRO.

                        DRO has 21 Field Offices, each with a Field Office Juvenile Coordinator
                        (FOJC) who serves as a local expert on the handling of juvenile issues by
                        DHS and assists with the initial placement of apprehended juvenile aliens.




12
     Ibid, p. 21.


                                    A Review of DHS’ Responsibilities for Juvenile Aliens

                                                           Page 6
                     •   ORR Responsibilities after the HSA

                         ORR was assigned the responsibility for caring for and housing
                         unaccompanied juvenile aliens who were detained pending resolution of
                         immigration cases enforced by DHS. These functions include facility
                         placement decisions; oversight and monitoring of facility contracts for
                         housing unaccompanied juveniles; running immigration and criminal checks
                         on potential sponsors of juveniles to whom juveniles may be released; and,
                         transportation of juveniles for medical care, court appearances, and facility
                         transfers. All these functions formerly were DRO responsibilities under INS.

                         According to the DRO National Juvenile Coordinator and ORR’s director of
                         the Division of Unaccompanied Children’s Services, the organizational
                         transition of the INS care and custody program for juvenile aliens to ORR
                         occurred incrementally until completion in August 2004. ORR was
                         authorized $52.8 million for its unaccompanied alien children program for FY
                         2004.13

                         ORR maintains and oversees contracts with for profit and non-profit agencies
                         that run juvenile facilities. As of October 2004, ORR oversaw 41 facilities
                         nationwide for unaccompanied juvenile aliens, with a total dedicated capacity
                         of approximately 920 beds. 14 The facilities provide housing to
                         unaccompanied juveniles at different levels of security restrictio ns.
                         According to ORR officials, it had over 800 unaccompanied juveniles in
                         custody in October 2004. ORR officials also said that the average time in
                         FY 2003 for a juvenile in ORR custody was 45 days.

                         Apprehending, Processing, Transporting, and Detaining Juvenile Aliens

                         The process for apprehending, processing, transporting, and detaining juvenile
                         aliens is complex and involves multiple U.S. agencies within as well as
                         external to DHS. In almost all cases, Border Patrol agents and CBP officers
                         stationed on the border and at established POEs apprehend unlawful juvenile
                         aliens. However, ICE investigators, the Federal Bureau of Investigation
                         (FBI), the Coast Guard, or any state or local law enforcement officer may
                         apprehend juvenile aliens. Depending on the location of apprehension, CBP
                         or ICE processes the apprehended juvenile for immigration violations.

                         When a juvenile alien is apprehended in a rural area, Border Patrol agents
                         transport the juvenile to the nearest Border Patrol station for processing.

13
   Budget of the United States Government, Unaccompanied Alien Children, Department of Health and Human Services,
Fiscal Year 2005.
14
   As of October 2004.


                                       A Review of DHS’ Responsibilities for Juvenile Aliens

                                                              Page 7
                          Apprehensions of juveniles at POEs do not require transportation because the
                          juvenile is already at a CBP processing facility. The processing includes
                          interviewing to determine the juvenile’s name, age, citizenship, whether the
                          juvenile is accompanied or unaccompanied, and other information;
                          completing necessary immigration paperwork, such as the Forms I-213 and I-
                          770;15 and, performing necessary systems checks in U.S. government
                          immigration and criminal databases.

                          When immigration processing is comp leted and CBP establishes that a
                          juvenile alien is unlawfully present in or is inadmissible to the United States,
                          CBP determines whether the juvenile can be voluntarily returned to the cross-
                          border country, released on bond into the custody of a sponsor pending
                          removal proceedings, or must be detained. A qualified sponsor is, in order of
                          preference: a parent, a legal guardian, or an adult relative such as a brother,
                          sister, aunt, uncle, or grandparent. 16

                          CBP can offer the option of choosing a Voluntary Return or a Withdrawal of
                          Application for Admission, if eligible. Voluntary Returns are performed
                          through a POE after a juvenile is apprehended by the Border Patrol on the
                          border near the POE. If the juvenile is from an area near the border, CBP
                          informs the local consular office of the juvenile’s apprehension. After the
                          consular representative confirms that the juvenile is a citizen of the cross-
                          border country, CBP transports the juvenile and the consular representative to
                          the U.S. POE nearest the juvenile’s home in the cross-border country.
                          Generally, accompanied juveniles are returned with their families, while
                          unaccompanied juveniles are turned over to the immigration authorities of
                          their cross-border country.

                          If the juvenile is to be detained in U.S. custody after apprehension, officials at
                          the CBP facility contact the DRO FOJC in the DRO field office with
                          jurisdiction. For example, a Border Patrol agent at the station in Campo, CA
                          would contact the FOJC at the San Diego DRO Field Office.

                          If the apprehended juvenile is unaccompanied, the FOJC contacts ORR in
                          Washington, DC to request a bed in an appropriate ORR facility. ORR
                          determines a placement location in an ORR facility with available bed space
                          and informs the FOJC of the placement facility. DRO personnel, such as
                          Immigration Enforcement agents (IEAs), generally transport the juvenile to
                          the ORR facility. These transports can be interstate, from either the CBP
                          facility or DRO field office to the ORR facility. Custody of the juvenile alien
                          transfers from DHS to ORR upon the juvenile’s physical delivery to the ORR

15
   Form I-213 is the Record of Deportable/Inadmissible Alien. The I-770 is the Notice of Rights and Request for
Disposition.
16
   Detention and Removal Officer’s Field Manual, Appendix 11-4: Juvenile Protocol Manual, November 2003.


                                         A Review of DHS’ Responsibilities for Juvenile Aliens

                                                                Page 8
facility. While ORR is responsible for transporting juveniles in its custody to
immigration hearings, DRO is responsible for monitoring the juveniles’
immigration cases and, if necessary, for removing the juveniles from the
United States.

Occasionally, adverse weather or flight schedules may delay a transfer. When
that happens, DRO temporarily houses the juvenile in a standby facility until
the transfer to the ORR facility can be completed.

The following diagram depicts the general flow of the apprehension,
processing, transportation, and detention process for juvenile aliens.




            A Review of DHS’ Responsibilities for Juvenile Aliens

                                   Page 9
Diagram 1. General CBP and ICE Process for Juvenile Aliens

         BP Agent                         Transported                                     No               Juvenile Held                              CBP Begins
     Apprehends Juvenile                 to BP Station                                                       Separately                               Processing
        in BP Sector                    for Processing                                                      from Adults                                Juvenile
                                                                        Accompanied?
         CBP Officer                   Transferred to                                     Yes            Juvenile Held with
        Apprehends                  Secondary Inspection                                                 Relative Separate                             Determine
       Juvenile at POE               Area for Processing                                                    from Adults                              Juvenile’s Age



                                                                       Notify                   Determine                Fingerprint and                 Run
                  Yes
                            Accompanied?                             Appropriate                Juvenile’s               Check IDENT for              Immigration
                                                                     Consulate                  Nationality               Juveniles > 14                Checks
                                          No
           Process
         Adult Relative
                                                                                                                                                 Mexican Consular
                                Yes                        No                                                               Yes                  Official Interviews
                                          Mexican?                                                            Mexican?
                                                                                                                                                Juvenile and Verifies
                                                                                                                                                Mexican Citizenship
       Mexican Consular                                                     Adult’s
        Official Interviews                                               Disposition?                            No
       Family and Verifies
       Mexican Citizenship

                                                                                          Placed in                                                  Voluntary
                                          Voluntary               Expedited                                                                No
                                                                                          Removal                                                    Return for
                                          Departure               Removal
                                                                                         Proceedings                                                 Juvenile?
             Voluntary        No                                                                                Juvenile Placed
              Return                                                                                              in Removal
            for Adult?                                                                                           Proceedings                               Yes
                                                Juvenile Allowed to
                                                Withdraw Application
                  Yes                              For Admission

                                                                                                                                                 Transport Juvenile
         Juvenile will be                                                                                                                        to Mexican Border
                                         Juvenile                DRO Removes                      Documentation Completed
           Voluntarily
           Returned                Voluntarily Departs            Adult; Juvenile                  and Served on Juvenile
                                      with Relative             Voluntarily Departs               (I-862 -NTA, I-770 Rights,
                                                                                                    List of Legal Services)
                                                                                                                                                 Juvenile Voluntarily
       Transport Juvenile                                                                                                                        Returned to Mexico
         and Relative to
        Mexican Border                                         Adult
                                               Yes                                 No
                                                         Released Pending
                                                           Proceedings?                                            Potential                       Detain Juvenile
                                                                                                                                     No
      Juvenile and Relative                                                                                         Sponsor                           Pending
      Voluntarily Returned                                                           Keep                          Available?                       Proceedings
                                                                                                  Yes
           to Mexico                                                                Family
                                                                                   Together?
                                                                                                                           Yes
                                                                                                                                                  Notify DRO FOJC
                                            Adult Relative Signs                                                                                  of Need to Detain
        Juvenile Released                  Document Accepting                            No
                                                                                                              Run Immigration and                      Juvenile
      to Relative’s Custody             Custody and Responsibility                                            Criminal Checks on
      Pending Proceedings                for Producing Juvenile at            Notify DRO FOJC
                                                                              of Need to Detain                Potential Sponsor
                                         Immigration Proceedings
                                                                                    Family                                                      DRO FOJC Contacts
                                                                                                                                                 ORR to Request
                                                                                                                                                 Placement Facility
                                                                                                                  Sponsor Signs
       Juvenile Stays with              DRO Transports Family               FOJC Locates                      Document Accepting
     Family in Family Shelter         to Shelter (CBP Transports            Available Space                Custody and Responsibility
      Pending Proceedings                if DRO is Unavailable)            in Family Shelter                for Producing Juvenile at             ORR Determines
                                                                                                            Immigration Proceedings             Space Availability and
                                                                                                                                                 Contacts FOJC with
                                           Juvenile Released                                                                                     Placement Location
       ORR Notifies DRO                                                    ORR Completes
                                         to Sponsor’s Custody
      of Juvenile’s Release                                             Release Documentation
                                          Pending Proceedings                                                   Juvenile Released
                                                                                                              to Sponsor’s Custody                 FOJC Arranges
                                                                        ORR Ensures Criminal                   Pending Proceedings                 Transportation
                                                                           and Immigration
                                                                                                                                                     for Juvenile
           Juvenile Aliens Process Flow                                    Checks are Run
           Apprehension to Disposition                                   on Potential Sponsor

                                                                                                                                           DRO Transports Juvenile
            CBP               ICE DRO          HHS ORR                                                  DHS Custody of Juvenile
                                                                            ORR Locates                                                       to Initial Placement
                                                                                                             Transfers to ORR
                                                                           Potential Sponsor                                                   (CBP Transports
                                                                                                        (within 72 hours – 5 days)          if DRO is Unavailable)




                     A Review of DHS’ Responsibilities for Juvenile Aliens

                                                                 Page 10
Results of Review
      Apprehension and Immigration Processing of Juvenile Aliens

                           Border Patrol agents and CBP officers are responsible for apprehending and
                           processing almost all unlawful juvenile aliens who are arrested in the border
                           area or who attempt to enter the United States. During immigration
                           processing, CBP personnel obtain the juvenile’s biographical information,
                           perform immigration record checks on all juveniles, and serve relevant
                           documentation on juveniles placed in removal proceedings. Processing of
                           juveniles must comply with Flores, a case that involved unaccompanied
                           juveniles who entered the United States illegally and were subsequently
                           detained by the U.S. government. 17 Juveniles are the first priority for
                           processing by CBP, taking precedence over adult aliens.

                           This section covers providing juvenile aliens with access to legal counsel and
                           CBP’s attentiveness to the limits for the length of time that juveniles can
                           spend in CBP facilities.

                           Juveniles’ Access to Legal Counsel

                           The Flores settlement requires that juvenile aliens receive paperwork during
                           processing that adult aliens do not receive, most notably Form I-770, the
                           Notice of Rights and Request for Disposition. 18 Pursuant to Flores, the Form
                           I-770 informs juveniles of their rights during the initial processing interview,
                           usually conducted by CBP. The I-770 allows juveniles to request, if eligible,
                           more streamlined ways to resolve their immigration cases and to be returned
                           to their native country. These options include accepting a voluntary
                           departure, or accepting a Voluntary Return for Mexican national or Canadian
                           national juveniles. According to Flores, juveniles who are under 14 years of
                           age, or are unable to understand the Form I-770, must have the form explained
                           to them in a language and manner they can understand.

                           Border Patrol agents and CBP officers are instructed to provide juvenile aliens
                           who are placed into immigration proceedings with a list of free legal service
                           providers in the jurisdiction where they are apprehended. According to both
                           the Juvenile Protocol Manual and Flores, “… juveniles are to be provided
                           legal services information regarding the availability of free legal assistance,
                           [and] the right to be represented by counsel at no expense to the [U.S.]
                           government.” While the lists of free legal service providers are maintained

17
     See Appendix D for a summary of Flores.
18
     See Appendix D.


                                         A Review of DHS’ Responsibilities for Juvenile Aliens

                                                               Page 11
                             and disseminated by the Executive Office of Immigration Review (EOIR), a
                             component of the Department of Justice (DOJ), 19 these lists should be
                             provided by the CBP facility where the juvenile is processed.

                             We sought to determine whether juvenile aliens received appropriate forms
                             apprising them of their legal rights in the United States; were informed about
                             obtaining an immigration attorney; and, were allowed access to telephones for
                             calls to attorneys, parents, or the appropriate consular offices.

                             Apprehended juvenile aliens generally receive their lists of free legal services
                             providers while being processed at Border Patrol stations and POEs.
                             However, the contact information on these lists is not consistently accurate.
                             We reviewed the lists of free legal services providers that are maintained by
                             EOIR and given to apprehended juveniles in the custody of the Border
                             Patrol’s Detroit, San Diego, and Tucson sectors. Of the 29 attorneys and legal
                             organizations who we attempted to contact, eight (27.6 percent) do not
                             represent apprehended juveniles in removal proceedings. The phone numbers
                             of three others were not in service; we were unable to contact four others
                             despite repeated attempts.

                             In our interviews, all CBP and DRO personnel were aware that juveniles were
                             to be given the Form I-770, given the free legal services lists, and permitted to
                             make phone calls for legal counsel, to relatives, or to their consulates. The
                             Form I-770 and legal services lists were consistently available in English and
                             Spanish. However, we did not determine to what extent they were available
                             in other languages. At the alien detention facility at the Tucson Border Patrol
                             sector headquarters, we observed a juvenile using the phone, alone in a
                             separate room in view of the Border Patrol agents. The juvenile was afforded
                             privacy behind a glass partition.

                             We recommend that the Undersecretary, Border and Transportation Security:

                                      Recommendation #1: Formally request that EOIR ensure that the
                                      lists of free legal services providers are current and accurate. Updated
                                      lists should be distributed on a regular basis to all Border Patrol
                                      stations and POEs.

                             Varying Conditions of Confinement at CBP Facilities

                             The conditions in which apprehended juvenile aliens are held vary
                             significantly depending on the CBP facility. There was no evidence that any
                             CBP facility was in violation of Flores. Moreover, during our field

19
     Code of Federal Regulations, Title 8, Section 1003.


                                            A Review of DHS’ Responsibilities for Juvenile Aliens

                                                                  Page 12
interviews, CBP personnel demonstrated an effective knowledge of how to
treat juveniles during apprehension, processing, and initial holding. They
recognize that handling juveniles requires special care and attention. At the
JFK POE, CBP officers purchase baby formula themselves. The Tucson
Border Patrol station has supplies of drinks, packaged snacks, and canned
goods that are distributed to juveniles upon their arrival. Some Border Patrol
and POE facilities had televisions and VCRs available for children, too.

However, the variations in physical facilities are sufficient to merit concern.
Marginal or limited facilities impose greater responsibilities on the CBP
facility’s staff to achieve sufficient separation, supervision, and monitoring of
juveniles.

We visited 13 CBP facilities in which juvenile aliens were held in FY 2004.
Below is a description of the relevant conditions at each CBP facility we
visited.

         Figure 2. Separation and Monitoring of Juvenile Aliens at 13 CBP Facilities

   CBP Facility           Location                   Separation                       Monitoring
       Name               (Sector)
Port Huron Border      Maryville, MI      There is one small holding cell,     The door to the holding
Patrol Station         (Detroit)          making it difficult to separate      cell is a chain-link fence,
                                          juveniles from adult aliens.         but there is obstructed
                                                                               monitoring of detained
                                                                               aliens.

Trenton Border         Trenton, MI        There are two small holding cells    The two cells are viewed
Patrol Station         (Detroit)          for separating aliens by both        through a camera
                                          gender and age. This makes it        mounted in a corner at
                                          difficult to separate juveniles      the top of the wall, and a
                                          from adults.                         vertical window in the
                                                                               door.

JFK International      Jamaica, NY        There is a separate, dedicated       While the door to the
Airport POE                               juvenile holding room that           separate juvenile room
                                          enables separation of juveniles.     was open, the control
                                                                               area at the back of the
                                                                               secondary inspections
                                                                               room does not provide
                                                                               direct views into the
                                                                               room.

Nogales POE            Nogales, AZ        Juveniles (unaccompanied and         Juveniles in the holding
                                          accompanied) waited                  area were supervised
                                          unrestrained in an L-shaped          directly by CBP
                                          section of chairs in front of a      personnel.
                                          CBP processing desk.

Detroit Border         Detroit, MI        Unaccompanied juveniles are          Juveniles are monitored
Patrol Station         (Detroit)          isolated. Accompanied juveniles      and in full view of
                                          are kept with parents in separate,   Border Patrol agents.
                                          designated holding rooms.



                 A Review of DHS’ Responsibilities for Juvenile Aliens

                                       Page 13
Blue Water Bridge      Port Huron, MI     This POE facility has two            Each cell has a camera,
POE                                       detention rooms in which             mounted in a corner at
                                          juveniles are held. Only one         the top of the wall and a
                                          juvenile is held in each cell        vertical window in the
                                          unless accompanied by family         door for monitoring.
                                          members.

Chula Vista Border     San Diego, CA      Unaccompanied juveniles are          Holding cells have
Patrol Station         (San Diego)        held separately in one of the        windows in the doors for
                                          large rooms or on a bench in the     monitoring detained
                                          processing area.                     juveniles.

Brownfield Border      San Diego, CA      Separation is easily                 Agents in the control
Patrol Station         (San Diego)        accomplished because the station     room overlook the
                                          has numerous cells for juveniles.    processing area and can
                                          A magnet reading “JUVENILE”          see all of the holding
                                          is placed on the door of the cell    cells. Closed circuit
                                          when necessary.                      televisions allow agents
                                                                               in the control room to
                                                                               monitor activity in the
                                                                               holding cells and
                                                                               processing areas.

Campo Border           Campo, CA          The facility has cells to house      Each cell has a row of
Patrol Station         (San Diego)        juveniles as necessary. Juveniles    windows in the wall to
                                          are separated immediately from       allow for visual
                                          other aliens but are kept with       monitoring.
                                          their families if accompanied.

San Ysidro POE         San Ysidro, CA     Unaccompanied juveniles are          Holding cells have
                                          held separately. Accompanied         windows in the doors for
                                          juveniles are kept with parents in   monitoring detained
                                          separate, designated holding         juveniles.
                                          cells.

Naco Border Patrol     Bisbee, AZ         Unaccompanied juveniles are          Holding cells have
Station                (Tucson)           separated into a designated cell.    windows in the doors for
                                          Mothers may share cells with         monitoring detained
                                          their juveniles.                     juveniles.

Nogales Border         Nogales, AZ        There are two cells - one for        The juveniles’ cells are
Patrol Station         (Tucson)           males and one for females - for      monitored from the
                                          unaccompanied juveniles.             control room, which
                                                                               overlooks the processing
                                                                               area and holding cells.
                                                                               There are three monitors
                                                                               for the closed circuit
                                                                               television cameras in the
                                                                               processing area and
                                                                               holding cells.

Tucson Border          Tucson, AZ         There are two cells for              All cells are monitored in
Patrol Station         (Tucson)           unaccompanied juveniles (one         the control room using
                                          for males and one for females).      closed circuit cameras.
                                          Accompanied juveniles are kept
                                          with parents in separate holding
                                          cells.




                 A Review of DHS’ Responsibilities for Juvenile Aliens

                                        Page 14
                          San Ysidro         San Ysidro,                       Unaccompanied             Holding cells have
                          POE                CA                                juveniles are held        windows in the doors
                                                                               separately.               for monitoring detained
                                                                               Accompanied               juveniles.
                                                                               juveniles are kept with
                                                                               parents in separate,
                                                                               designated holding
                                                                               cells.

                          Naco Border        Bisbee, AZ           11,153       Unaccompanied             Holding cells have
                          Patrol Station     (Tucson)                          juveniles are separated   windows in the doors
                                                                               into a designated cell.   for monitoring detained
                                                                               Mothers may share         juveniles.
                                                                               cells with their
                                                                               juveniles.

                          Nogales Border     Nogales, AZ          7,194        There are two cells -     The juveniles’ cells are
                          Patrol Station     (Tucson)                          one for males and one     monitored from the
                                                                               for females - for         control room, which
                                                                               unaccompanied             overlooks the
                                                                               juveniles.                processing area and
                                                                                                         holding cells. There are
                                                                                                         three monitors for the
                                                                                                         closed circuit television
                                                                                                         cameras in the
                                                                                                         processing area and
                                                                                                         holding cells.

                          Tucson Border      Tucson, AZ           5,855        There are two cells for   All cells are monitored
                          Patrol Station     (Tucson)                          unaccompanied             in the control room
                                                                               juveniles (one for        using closed circuit
                                                                               males and one for         cameras.
                                                                               females).
                                                                               Accompanied
                                                                               juveniles are kept with
                                                                               parents in separate
                                                                               holding cells.



                          CBP can overcome limitations in its facilities but sometimes at the cost of
                          diverting personnel from other duties. CBP should ensure that expanding
                          juvenile holding capabilities is considered whenever it initiates new
                          construction or renovations of CBP facilities.

                          Juveniles’ Time in DHS Custody

                          There are inconsistencies in meeting the requirement to transfer accompanied
                          and unaccompanied detained juveniles to longer-term DRO or ORR detention
                          facilities within the 3-5 day limit imposed by Flores. 20 In addition, juveniles

20
  According to Flores, a juvenile alien in DHS custody must be placed in an appropriate juvenile facility within 3 days
(72 hours) from when CBP or ICE assumes custody. CBP and ICE consider the 3-day standard in terms of 72 hours for
the time in hours that elapses between apprehension and longer-term placement, rather than as a calendar day. DHS has


                                           A Review of DHS’ Responsibilities for Juvenile Aliens

                                                                 Page 15
                           were held at CBP facilities for over 24 hours, which exceeds the maximum
                           CBP guideline for holding a juvenile. The cumulative time a juvenile may
                           spend in the custody of CBP before placement in a longer-term DRO or ORR
                           detention facility includes time required for transportation from a possibly
                           remote apprehension site to the CBP processing facility, short-term holding at
                           the processing facility, and transportation to the longer-term detention
                           facility. 21 The ability to comply with the 3-5 day requirement begins with
                           expeditious processing by CBP.

                           CBP policies allow it to hold apprehended juvenile aliens for a maximum of
                           24 hours at Border Patrol or POE facilities. CBP officials confirmed that the
                           Border Patrol has implemented a 12-hour maximum as a guideline for holding
                           juveniles at Border Patrol stations. 22 Apprehended juveniles, as a rule, may
                           not be held at CBP POEs for longer than 24 hours. 23

                           Juvenile aliens apprehended in the Border Patrol sectors and POEs we visited
                           sometimes were held for longer than 24 hours. These juveniles usually were
                           held for longer than 24 hours to allow for appropriate bed space to be located
                           and transportation to be arranged. We examined the apprehension,
                           processing, and transportation data in the A files 24 for 131 juveniles who were
                           apprehended and processed at the field sites we visited. 25 CBP processed
                           juveniles within 24 hours from when they were apprehended. 26

                           We analyzed the A files of 94 juveniles that contained sufficient data on dates
                           of apprehension by CBP and dates they were released or transported from the
                           initial CBP facilities following completion of processing. 27 Our analysis


a maximum of five days to place the juvenile in a longer-term detention facility if the juvenile was apprehended in an
area without bed space in a DRO-approved facility (for accompanied juveniles) or in an ORR-approved facility (for
unaccompanied juveniles).
21
   Detention and Removal Officer’s Field Manual, Appendix 11-4: Juvenile Protocol Manual, November 2003.
According to CBP officials, even though a separate juvenile manual tailored for CBP personnel does not exist, the
current Juvenile Protocol Manual is applicable to CBP.
22
   INS Detention Standard, Hold Rooms in Detention Facilities, September 20, 2000. These Border Patrol standards do
not address the total time a juvenile can be held at Border Patrol stations because this standard is for “unprocessed
detainees.”
23
   Secure Detention Procedures at Ports of Entry, March 9, 2004. Although the Border Patrol has a 12-hour maximum
guideline for holding juveniles at Border Patrol stations, we used the highest CBP guideline of 24 hours for our analysis
of CBP’s holding of juveniles at both POEs and Border Patrol stations.
24
   Alien files, also known as A files, are the central repositories for immigration information on individual aliens in the
United States.
25
   Of the 174 A files, 131 files contained sufficient data specifically on processing dates and were for juveniles
apprehended within our field sites.
26
   Processing of juveniles includes interviewing the juvenile, completing necessary immigration paperwork, and
performing necessary systems checks.
27
   Of the 174 A files, only 94 files contained sufficient data on dates of release from CBP facilities and when juveniles
were transported from those facilities.


                                          A Review of DHS’ Responsibilities for Juvenile Aliens

                                                                Page 16
                          determined that 33 juveniles out of 94 (35.1 percent) were held for over 24
                          hours at the initial CBP processing facility.

                          CBP personnel know the rules concerning the maximum lengths of time that
                          juvenile aliens can spend in CBP facilities. Overall, 39 of the 43 (90.7
                          percent) line personnel we interviewed at CBP facilities were aware of the
                          maximum times. Others deferred to supervisors for information on
                          requirements for processing juveniles.

                          CBP officials at the Border Patrol stations and POEs we visited acknowledged
                          various circumstances that caused juveniles to be held for more than 24 hours
                          at their facilities. These circumstances were similar for both Border Patrol
                          stations and POEs, and include:

                          •    Finding appropriate bed space outside of the Border Patrol sector or
                               region. This reason was given at the Detroit (neither ORR nor DRO has
                               any juvenile facilities in the Detroit area) 28 and San Diego Border Patrol
                               sectors, and at the JFK and San Ysidro POEs.

                          •    Waiting for appropriate modes of transportation by CBP or DRO. This
                               reason was given at the San Diego Border Patrol sector, and the JFK
                               (waiting for a return flight to disembark) and San Ysidro POEs.

                          •    Waiting for inclement weather to abate. This reason was given at the JFK
                               POE.

                          •    Determining that an accompanying parent is a criminal alien and is held
                               for prosecution. This reason was given at the Tucson Border Patrol sector.

                          •    Finding a secure placement facility for a juvenile with a criminal history.
                               This reason was given at the Detroit Border Patrol sector.

                          At the time of our review, the Border Patrol did not have any policy that
                          dictated the process for reviewing and approving decisions to hold juvenile
                          aliens at Border Patrol stations for more than 24 hours. 29

                          For a more complete analysis of the total time a juvenile alien spends in DHS
                          custody, we reviewed relevant data, from apprehension through placement in
                          a longer-term DRO or ORR facility, that were contained in the Deportable


28
   When the Detroit Border Patrol sector has to hold juveniles for more than 24 hours, Border Patrol agents transport and
hold juveniles in temporary housing in various hotels near the Border Patrol stations.
29
   CBP has a policy for reviewing and approving the holding of juveniles for more than 24 hours that only applies to
POE facilities, as opposed to Border Patrol facilities. Secure Detention Procedures at Ports of Entry, March 9, 2004.


                                         A Review of DHS’ Responsibilities for Juvenile Aliens

                                                               Page 17
                           Alien Control System (DACS). 30 According to the DACS data, 1,857 juvenile
                           aliens were detained by DRO in FY 2004 and were subsequently placed in a
                           longer-term facility. 31 Our analysis showed that 224 (12.1 percent) of the
                           1,857 juveniles were held longer than five days before placement in a longer-
                           term detention facility. According to the DACS data, these lengths of time
                           ranged from 6 to 225 days. 32 The records did not reflect the reasons for the
                           delays or who approved them. 33

                           To promote DHS’ responsibility to process and transport juvenile aliens in a
                           timely manner, all CBP personnel who have contact with juveniles need to
                           know the relevant time requirements, the approved reasons for exceeding
                           them, the appropriate officials who should be notified, and the officials with
                           authority to approve the exceeding of the guidelines.

                           We recommend that the Undersecretary, Border and Transportation Security:

                                    Recommendation #2: Formulate and disseminate official policies,
                                    applying to all CBP facilities that hold juvenile aliens, which stipulate
                                    the exceptions to the time guidelines on holding juveniles; the
                                    deadlines and formats for notification; and, specific officials who are
                                    authorized to approve extensions.


Longer-Term Detention of Juvenile Aliens

                           DRO is primarily responsible for transporting apprehended juvenile aliens
                           from CBP facilities to longer-term detention facilities overseen by DRO or
                           ORR. The former INS’ policy for escorts governs DHS policy for
                           transporting and escorting juvenile aliens. 34 CBP and ICE escort juveniles
                           using detention vans and buses. Escorts of unaccompanied juveniles require a
                           minimum of one ICE or CBP employee and an employee of the same gender
                           is required for one juvenile. Two employees are required for a group of two
                           to five juveniles and each additional group of five juveniles requires an

30
   DACS is a mainframe system that tracks the status of illegal aliens, including juvenile aliens, who are in removal
proceedings. The system provides an automated database that assists in the deportation or detention of aliens in
accordance with immigration and nationality laws. It also serves as a docket and control system concerning the status
and disposition of deportable aliens.
31
   We analyzed data for 1,857 juvenile aliens apprehended and then detained nationwide in FY 2004. These data were
compiled from DACS data, provided by DRO in May 2005.
32
   We also found 17 juvenile aliens, according to the DACS data, for whom dates for entering the longer-term detention
facility were before their apprehension dates. These 17 records were not included in this analysis.
33
   According to a DRO official, delays in placing juveniles in longer-term facilities occur for reasons such as the juvenile
initially gives inaccurate biographical data to apprehending officers; initially claims to be an adult; has a medical
condition; or, may be a witness for an investigation.
34
   Enforcement Standard: Escorts, Deportation Officer’s Field Manual, August 29, 2002.


                                          A Review of DHS’ Responsibilities for Juvenile Aliens

                                                                Page 18
                          additional employee. Flores stipulates that unaccompanied juveniles
                          apprehended by DHS “should not be transported… in vehicles with detained
                          adults” unless specific circumstances apply. 35 We did not receive assurances
                          that a female DHS employee always escorts a single female juvenile.
                          However, CBP line personnel explained that they follow specific escort
                          procedures, including reporting the starting and ending times and mileage
                          incurred during the escort.

                          ICE is currently under a hiring freeze that began on April 2, 2004, and will
                          remain in effect until further notice. 36 With few exceptions, ICE has been
                          unable to hire new employees and cannot fill vacancies when employees leave
                          current ICE positions. Transporting juvenile aliens to different jurisdictions
                          requires intensive DRO workforce resources that are not increasing
                          concurrently with national increases in juvenile apprehensions. 37 Therefore,
                          CBP personnel regularly supplement DRO transportation operations, moving
                          juveniles from the CBP facility after processing to subsequent DRO or ORR
                          detention facilities.

                          DRO is responsible for housing accompanied juvenile aliens, while ORR is
                          responsible for housing unaccompanied juvenile aliens pending the resolution
                          of immigration proceedings. DRO attempts to keep families together by
                          finding available space in a family shelter. However, on occasion, such as
                          when criminal charges are filed against the parent or bed space is not available
                          in a family shelter, DRO is unable to keep the juvenile with the adult relative.
                          In these instances, the juvenile is separated from the adult relative and is
                          treated as an unaccompanied juvenile under ORR’s jurisdiction.

                          Need for Additional Family Shelters

                          Juvenile aliens who were accompanied when originally apprehended can
                          become unaccompanied juveniles because of a lack of appropriate detention
                          facilities. In these situations, accompanied juveniles, regardless of age, are
                          separated from their family members because longer-term facilities are not
                          readily available to accommodate the family. Juveniles ranging from babies
                          to teenagers are transported to facilities without their parents. Separating
                          juveniles from their family increases the risk in housing a particularly



35
   Flores, Stipulated Settlement Agreement, August 12, 1996. Examples of these circumstances include when juveniles
are transported from the apprehension location to a CBP facility or when separate transportation of juvenile and adult
aliens is “impractical.”
36
   Hiring Freeze Guidance, U.S. Immigration and Customs Enforcement, 2004.
37
   According to CBP officials, Border Patrol apprehensions of juvenile aliens in FY 2004 were 26.2 percent higher than
juvenile apprehensions in FY 2003.


                                        A Review of DHS’ Responsibilities for Juvenile Aliens

                                                              Page 19
                          vulnerable alien population and contradicts DHS’ priority to keep juveniles
                          with their families. 38

                          The Phoenix FOJC said that there is no facility in the Phoenix area that can
                          accommodate apprehended families with juvenile aliens (known as a “family
                          unity” shelter). Phoenix DRO oversees detention and removals for juvenile
                          aliens for the Tucson Border Patrol sector, which apprehended the most
                          juvenile aliens - 48,272 - of any Border Patrol sector in FY 2004.

                          We reviewed the A files for seven accompanied juveniles who were
                          apprehended and detained in the Tucson area. Six of these accompanied
                          juveniles were detained in ORR facilities in the Phoenix area. 39 All six of
                          these accompanied juveniles were separated from their families.

                          There is no facility to house accompanied juvenile aliens with their family
                          members in the New York area. 40 Prior to August 2004, the New York DRO
                          usually transported juveniles to the ORR facility in Leesport, PA (outside of
                          Philadelphia, PA) that housed unaccompanied juvenile aliens. 41 During the
                          time of our review, accompanied juveniles apprehended at the JFK POE
                          generally were separated from their families and were sent as unaccompanied
                          juveniles to ORR facilities in Chicago, IL, Miami, FL, and Texas.




38
   Detention and Removal Officer’s Field Manual, Appendix 11-4: Juvenile Protocol Manual, November 2003.
39
   We could not find detention facility information for one juvenile alien.
40
   We determined that there is no facility to house accompanied juvenile aliens with their family members in the Detroit
area, too.
41
   According to the DRO National Juvenile Coordinator, ORR terminated the facility contract with the Leesport, PA
juvenile facility in August 2004.


                                         A Review of DHS’ Responsibilities for Juvenile Aliens

                                                               Page 20
 Cases

     •    Border Patrol agents apprehended a 12- year old juvenile alien with
          his mother near the POE at Douglas, AZ. The juvenile was
          transported to an ORR facility in Phoenix approximately two days
          after apprehension. The ORR facility in which the juvenile was
          detained does not accommodate adult aliens. His mother was taken
          to and detained at the DRO Florence Service Processing Center in
          Florence, AZ.

     •    CBP apprehended an 11-year old juvenile at the JFK POE.
          Accompanied by his aunt, the juvenile was apprehended and
          processed the same day at the POE. He was transferred to an ORR
          facility in Chicago, IL that does not accommodate family members of
          apprehended juvenile aliens.


The San Diego FOJC said that an ORR facility in San Diego can hold the
mother of an accompanied juvenile, but fathers of accompanied juveniles are
transported to a separate California facility without the juvenile. A juvenile
traveling with a single male parent becomes an unaccompanied juvenile, is
separated from the father, and is subsequently transferred to ORR.

We recommend that the Undersecretary, Border and Transportation Security:

         Recommendation #3: Consider the costs and benefits for DRO to
         obtain additional bed space in facilities with family unity capacity. If
         determined to be beneficial, evaluate and determine the most
         advantageous locations for family unity facilities based on factors
         including volume of juvenile apprehensions and proximity to border
         areas or POEs.

Placement Determinations for Unaccompanied Juveniles

The placement determination process contributes to delays in transferring
unaccompanied juvenile aliens from a CBP processing facility or DRO
detention facility to an ORR longer-term placement facility. Additionally, the
process leads to juvenile aliens being dispersed across the United States.
Juveniles are transferred frequently to initial longer-term facilities that are not
in the local geographic area of their apprehension. For example, a DRO agent
in the San Diego Field Office said that he has transported juveniles to
facilities in Miami, Phoenix, and El Paso.



              A Review of DHS’ Responsibilities for Juvenile Aliens

                                    Page 21
                         After an apprehension, CBP notifies the respective DRO FOJC that an
                         unaccompanied juvenile alien has to be detained pending immigration
                         proceedings. The FOJC provides biographical, behavioral, and apprehension
                         information to ORR for its use in determining the appropriate type of facility
                         in which to house the juvenile. The FOJC request to ORR is a critical step in
                         transferring an unaccompanied juvenile to an appropriate facility within 3-5
                         days, pursuant to Flores.

                         After the initial FOJC contact, ORR determines which ORR facilities have
                         available bed space and are an appropriate placement location for the juvenile
                         alien. Once the facility is determined, ORR provides that information to the
                         FOJC who, in turn, notifies CBP or DRO of the location and makes
                         arrangements to transport the unaccompanied juvenile. The process of
                         identifying an ORR facility usually takes only a few hours. However, any
                         delay by ORR extends the time that a juvenile spends in temporary holding
                         conditions at the apprehension site.

                         While DRO may request that an unaccompanied juvenile alien be placed at a
                         specific facility geographically close to where the juvenile was apprehended,
                         ORR may decide to place the juvenile in an ORR facility much farther away.
                         For example, ORR has placed juveniles apprehended in the Tucson Border
                         Patrol sector in facilities in Miami, Atlanta, and Washington state.

                         The geographic dispersion of juveniles is especially acute in areas that have
                         no applicable DRO or ORR facilities, such as Detroit and New York. ORR,
                         as of October 2004, had 41 facilities nationwide. Twenty-seven of these
                         facilities are located in states on the Southwest border that have the highest
                         volume of juvenile alien apprehensions. However, these facilities are mostly
                         inland away from the border and the associated Border Patrol stations.

                         DRO must expend limited workforce resources for interstate transportation of
                         juvenile aliens to ORR facilities. Our analysis showed that 364 (19.6 percent)
                         of the 1,857 juvenile aliens detained by DRO in FY 2004 were held in an
                         initial longer-term facility in a different DRO Field Office jurisdiction or state
                         from where they were initially apprehended. 42

                         When DRO has difficulty making travel arrangements, especially scheduling
                         flights to distant ORR facilities, DRO may be required to place the juvenile
                         alien in a temporary detention facility. In some locations, such as Detroit and
                         New York, this has resulted in temporarily housing juveniles in hotel rooms
                         near the Border Patrol stations or JFK International airport.


42
  We analyzed data for juvenile aliens apprehended and then detained nationwide in FY 2004. These data were
compiled from DACS data, provided by DRO in May 2005.


                                       A Review of DHS’ Responsibilities for Juvenile Aliens

                                                             Page 22
                        We recommend that the Undersecretary, Border and Transportation Security:

                                Recommendation #4: Propose to ORR that ORR and DRO jointly
                                evaluate apprehension rates by geographic area and provide adequate
                                bed space near significant areas of apprehensions in order to minimize
                                DHS initial interstate transfers of unaccompanied juveniles.


     DHS Management and Oversight of Juvenile Alien Responsibilities

                        The HSA profoundly changed the system for apprehending, transporting, and
                        detaining juvenile aliens. Where a single organization once was responsible
                        for juveniles, there are now two responsible federal departments, DHS and
                        HHS. Within DHS, responsibilities for juveniles are split between two major
                        components, CBP and ICE.

                        DHS and HHS have failed to delineate clearly their respective organizational
                        functions regarding unaccompanied juvenile aliens who are apprehended,
                        transported, and initially detained by DHS - but who are subsequently
                        transferred to ORR. In addition, the responsibilities within DHS for program
                        oversight of juveniles require further definition.

                        Delineation of Interagency Juvenile Program Responsibilities

                        DRO and ORR have contrasting organizational missions. 43 DRO seeks to
                        ensure “the departure from the United States of all removable aliens” through
                        enforcement of U.S. immigration laws. 44 Conversely, ORR directs programs
                        to help refugees and aliens, including juveniles, with “domestic refugee and
                        entrant resettlement assistance.” ORR’s mission is to assist refugees and
                        aliens in establishing “a new life that is founded on the dignity of economic
                        self-support.”45 Harmonizing these differing missions through clearer
                        delineation of program responsibilities would define ORR’s obligations to
                        abide by applicable immigration laws governing the cases of juvenile aliens
                        held in ORR facilities.

                        In March 2003, the HSA divided immigration functions related to
                        unaccompanied juvenile aliens between DHS and HHS. However, ORR was
                        unable to immediately assume these new statutory responsibilities. For
                        example, ORR was initially unable to transport unaccompanied juveniles to
                        court, medical facilities, or other ORR facilities. By agreement between DHS

43
   The current responsible DHS component is DRO. The current responsible HHS component is ORR.
44
   ENDGAME: Office of Detention and Removal Strategic Plan, 2003-2012, Immigration and Customs Enforcement,
June 27, 2003.
45
   ORR Mission, Office of Refugee Resettlement, Administration for Children & Families, HHS.


                                     A Review of DHS’ Responsibilities for Juvenile Aliens

                                                           Page 23
                        and HHS, DRO continued performing these transportation duties until ORR
                        was able. DRO continued to perform duties technically transferred to ORR
                        until August 2004, when ORR was capable of independently fulfilling this
                        mission.

                        DRO and ORR attempted to draft a Memorandum of Understanding (MOU)
                        to delineate their respective roles and responsibilities for unaccompanied
                        juvenile aliens. Both the DRO National Juvenile Coordinator and the relevant
                        ORR Division director confirmed that an MOU for the unaccompanied
                        juveniles program has not been signed and, in the words of the Coordinator,
                        “relevant negotiations are currently in a stalemate.” The Coordinator said that
                        ORR has had concerns with privacy and social services issues, while DRO has
                        been concerned with security issues, such as restricting the releases of
                        juveniles only to sponsors qualified in accordance with applicable
                        immigration laws and policies.

                        Due to difficulties the two agencies had in agreeing on the terms of the MOU,
                        they developed instead a Statement of Principles as an interim agreement. 46
                        The Statement of Principles represents the only current, formal agreement
                        between DHS and HHS on the unaccompanied juvenile program. While the
                        Statement of Principles defines overarching operational responsibilities, it
                        does not address important issues and procedures regarding the care,
                        treatment, and release of unaccompanied juveniles on which agreement
                        between DHS and HHS is essential. The Statement of Principles regarding
                        unaccompanied juveniles is an imprecise and preliminary document. It was
                        issued in April 2004, over one year after the statutory assignment of
                        responsibilities and resources to HHS. It has not been updated in the one year
                        since it was signed. A more detailed, binding MOU would improve the
                        effectiveness of the mandated coordination between the two agencies when
                        unaccompanied juveniles require housing by ORR while their immigration
                        cases are resolved. The directors for DRO and ORR have been responsible
                        for facilitating the currently unsuccessful MOU negotiations. While the head
                        of the responsible ORR Division and the DRO National Juvenile Coordinator
                        have regular discussions on procedural matters, both officials agreed that
                        these discussions were unable to resolve the serious policy differences that a
                        comprehensive MOU would address.

                        Among other issues, DRO should continue to urge ORR to adopt specific
                        criteria, enumerated in procedures, which govern when ORR may release
                        unaccompanied juvenile aliens on bond or into the custody of a sponsor
                        pending immigration proceedings. These procedures should identify
                        appropriate sponsors to whom a juvenile may be released, the record checks to
46
  Statement of Principles Between the Department of Homeland Security and the Department of Health and Human
Services, Unaccompanied Alien Children Program, April 6, 2004. See Appendix E.


                                      A Review of DHS’ Responsibilities for Juvenile Aliens

                                                            Page 24
                        be run on proposed sponsors, timing of notifications to DRO that ORR plans
                        to release a juvenile, and a procedure for DRO to oppose a proposed ORR
                        release of a juvenile.

                        DRO officials told us that release procedures vary by ORR facility. The DRO
                        National Juvenile Coordinator said that ORR does not consistently notify
                        DRO of a juvenile’s pending release and may not notify DRO until days after
                        the release. DRO concerns stem from its responsibility for the safety of
                        juveniles in DRO Field Office jurisdictions and for the completion of
                        juveniles’ immigration cases. In FY 2004, 249 juveniles failed to appear for
                        their required immigration hearings after being released from an initial ORR
                        facility. 47

                        The following cases are illustrative of these juvenile release problems:




47
   EOIR, a component of the Department of Justice, tracks the progress and outcome of immigration cases in its
Automated Nationwide System for Immigration Review (ANSIR) case management database. EOIR provided the data
in response to our request to compare the DACS list of 1,857 detained juvenile aliens with ANSIR data showing
juveniles who failed to appear and were consequently issued immigration removal orders in absentia.


                                      A Review of DHS’ Responsibilities for Juvenile Aliens

                                                            Page 25
Cases

   •    Two 16- year old juvenile siblings from Guatemala were apprehended
        together and placed in an ORR facility in Phoenix. The 16-year old
        sister was released, with ORR’s approval, to a 19-year old male
        sponsor who was in the United States illegally. The sponsor submitted
        a birth certificate to ORR facility personnel with a different name from
        what he originally gave. The 16-year old brother, who was
        apprehended at the same time, was released to an illegal 20-year old
        who claimed to be his older brother. The Phoenix FOJC disagreed
        with the decision to release these two juveniles. Despite these
        objections, ORR released both of them in February 2005.

   •    Two related Guatemalan juveniles, each aged 17½, were transferred
        from a Phoenix DRO detention facility to a Phoenix ORR facility on
        March 4, 2005. Immediately following their transfer to the ORR
        facility, a Guatemalan adult applied to be a sponsor for the two
        juveniles and have them released into his custody. This proposed
        sponsor claimed to be the father of one juvenile and the uncle of the
        other. The proposed sponsor submitted birth certificates for
        completely different identities for the two juveniles to prove the
        juveniles’ relationship to him. ORR accepted the two birth certificates
        as valid and then conducted an Internet background check on the
        sponsor with negative results. ORR approved the juveniles’ releases
        to the applying sponsor in March 2005.

        After being informed that these two juveniles had been released to the
        sponsor, the Phoenix FOJC performed immigration database checks on
        the sponsor. These checks revealed two prior apprehensions for
        immigration violations that made the sponsor removable. Further
        criminal database checks showed that the sponsor had an extensive
        U.S. criminal history, dating back to 1991, for offenses such as
        burglary, assault and battery, and receiving stolen property. These
        immigration and criminal offenses made this alien ineligible to
        sponsor these two juveniles.




            A Review of DHS’ Responsibilities for Juvenile Aliens

                                  Page 26
                        We recommend that the Undersecretary, Border and Transportation Security:

                                Recommendation #5: Request ORR to enter into an MOU with DRO
                                on respective responsibilities for unaccompanied juvenile aliens. The
                                MOU should contain specific requirements for releases, including
                                mandatory record checks on potential juvenile sponsors.

                        Need to Formalize Oversight Responsibilities of Juvenile Alien Program

                        DHS’ leadership of its juvenile alien responsibilities is not well defined. The
                        National Juvenile Coordinator transferred to DRO from the former INS and
                        has continued responsibilities for developing juvenile policy for the DRO
                        field, training DRO field personnel on policy and laws governing handling of
                        juvenile aliens, and acting as an organizational liaison. However, a National
                        Juvenile Coordinator has not been established for all of DHS and the position
                        did not appear to have formal authority outside of DRO to direct CBP and
                        non-DRO ICE personnel on juvenile alien issues.

                        The HSA formally transferred program responsibilities, staff, and budgets for
                        unaccompanied juvenile aliens to ORR. However, DHS still has
                        responsibility and authority for apprehending, processing, transporting, and
                        initially detaining juvenile aliens, both unaccompanied and accompanied. 48
                        DHS is also responsible for housing accompanied juveniles until they are
                        released from custody or returned to their country of origin.

                        While DHS is responsible for aspects of juvenile detention, the
                        responsibilities are split between internal components and program authority
                        is unclear. Formalizing the scope and authority of the DRO National Juvenile
                        Coordinator could increase the uniform direction and guidance given to CBP
                        and ICE, agencies that are both involved in apprehending, transporting, and
                        housing juvenile aliens. It would also provide a clear point of contact for
                        entities outside of DHS for juvenile-related policies and procedures.

                        We recommend that the Undersecretary, Border and Transportation Security:

                                Recommendation #6: Consider formally designating the position of
                                National Juvenile Coordinator as the DHS lead on juvenile alien policy
                                and the official DHS point of contact on juvenile alien policy for other
                                agencies and organizations.



48
  DRO does not have specific objectives or program descriptions related to DRO’s mission for juvenile aliens.
ENDGAME: Office of Detention and Removal Strategic Plan, 2003-2012, Immigration and Customs Enforcement, June
27, 2003.


                                     A Review of DHS’ Responsibilities for Juvenile Aliens

                                                           Page 27
     Status of 2001 DOJ OIG Report Recommendations

                         On September 28, 2001, DOJ OIG issued a report, Unaccompanied Juveniles
                         in INS Custody.49 This report described the management and treatment of
                         unaccompanied juveniles apprehended and detained by the former INS. The
                         report contained 28 recommendations to improve INS policies and procedures
                         on juvenile detentions. Following the report, INS and DOJ OIG were able to
                         resolve and close eight of the recommendations. After DHS assumed
                         responsibility for INS’ immigration functions in March 2003, we became
                         responsible for tracking recommendations contained in the DOJ OIG report.

                         In March 2004, we reviewed the 20 remaining open recommendations from
                         the DOJ OIG report. 50 We administratively closed eight recommendations
                         and transferred responsibility for closing nine recommendations to HHS. We
                         retained responsibility for resolving and closing two recommendations and
                         determined that one recommendation would require action by both DHS and
                         HHS to resolve and close. As part of this inspection, we reviewed progress
                         made in addressing these last three recommendations.

                         Continuing CBP and ICE Training Program on Treatment of Juveniles

                         According to DOJ OIG report Recommendation 25:

                                 The INS should establish a continuing post-academy INS-wide
                                 training program to ensure all employees whose duties bring
                                 them into contact with juveniles understand and comply with
                                 the terms of the Flores agreement and document the training.

                         CBP and ICE have not implemented an ongoing post-academy training
                         program on the Flores agreement. Training on Flores was incorporated into
                         the curriculum taught to immigration agents and officers at the Federal Law
                         Enforcement Training Center (FLETC), but continuing post-academy training
                         is lacking.

                         We interviewed 43 line CBP personnel and 22 line DRO personnel. Of these
                         65 interviewees, 21 CBP and DRO personnel graduated from FLETC after
                         Flores was implemented in February 1997. They recalled receiving training
                         relating to the proper treatment of juvenile aliens during their FLETC training.
                         However, they did not recall receiving any additional formal training, other

49
  DOJ OIG Report Number I-2001-009.
50
  Open Inspector General Recommendations Concerning the Former Immigration and Naturalization Service from
“Unaccompanied Juveniles in INS Custody,” a Report by the Department of Justice Inspector General, OIG-04-18,
March 2004.


                                       A Review of DHS’ Responsibilities for Juvenile Aliens

                                                             Page 28
than on-the-job training, related to juvenile aliens and Flores after graduating
from FLETC. Of the 44 CBP and DRO interviewees who did not receive the
FLETC training, 18 recalled viewing a short video and receiving a related
handout as part of their 1997 training on Flores but they did not recall the
specific content of the training.

We noted that procedural and policy updates on handling juvenile aliens
appear to be available to CBP and ICE personnel who have contact with
juvenile aliens. For example, DRO FOJCs have weekly teleconference calls
with the DRO National Juvenile Coordinator that include updates on relevant
policies and procedures. According to a DRO official, the FOJCs then relay
any policy or procedural updates to appropriate DRO officers in their
respective Field Offices. Twenty-two DRO personnel, CBP officers, and
Border Patrol agents said they intermittently receive updates relating to
juveniles during pre-shift muster meetings, or via memoranda or email.

To ensure all relevant CBP and ICE personnel are informed of current
procedures and requirements for handling juveniles, a consistent, DHS-wide
training program should be implemented to ensure that all relevant employees
understand and comply with Flores. We are closing Recommendation 25 of
the 2001 DOJ OIG Report Number I-2001-009 and issuing the equivalent
recommendation in this report.

We recommend that the Undersecretary, Border and Transportation Security:

       Recommendation #7: Establish an ongoing training program to
       ensure that all CBP and ICE employees whose duties bring them into
       contact with juvenile aliens understand and comply with the terms of
       Flores. This training should be standardized in format and
       participation should be centrally documented.

Records of Transportation and Custody of Detained Juveniles

According to DOJ OIG report Recommendation 4:

       The INS should implement procedures that require juvenile
       transportation and detention custodial records that provide
       sufficient accountability for all juveniles detained in the
       custody of the Border Patrol sectors and the districts.

Documentation of transportation and detention custodial records for juvenile
aliens continues to be inconsistent at DRO Field Offices. Consistent and
uniform documentation would provide ICE with adequate records to confirm



            A Review of DHS’ Responsibilities for Juvenile Aliens

                                  Page 29
                          the use of appropriate procedures and identify problems that may arise during
                          the transport and detention of juvenile aliens.

                          DRO Field Offices generally maintain travel and detention logs for detained
                          juvenile aliens. However, the logs at the four DRO Field Offices we visited
                          were not uniform in format. Some were composed of all aliens detained or
                          transported, whether juveniles or adults. For example, the DRO National
                          Juvenile Coordinator said that DRO uses Form I-216 (Record of Person and
                          Property Transferred) and Form G-391 (Official Detail) to document
                          transportation of juveniles. However, the Detroit FOJC said that the Detroit
                          DRO’s “Travel Section” maintains a spreadsheet of localized transportation
                          records involving juveniles. The New York FOJC retains a handwritten
                          logbook of juveniles housed at a JFK hotel. For New York DRO,
                          transportation is documented on the Form G-391 and should be in the
                          juvenile’s A file. 51 The New York DRO Field Office also maintains Forms I-
                          216 for all detained aliens, but does not separate the forms for juveniles from
                          those for adult aliens. Phoenix DRO documents transports of juvenile aliens
                          using the form I-216, which is maintained by the local detention office.
                          Phoenix DRO does not maintain a separate transport log for juveniles. The
                          San Diego FOJC maintains an electronic spreadsheet of juvenile aliens in
                          “active custody” and those who were released.

                          Juveniles were not separated as a category, or individually identified as
                          juveniles, in the DRO logs we reviewed. The DRO National Juvenile
                          Coordinator said DRO plans to track transportation of juveniles DRO-wide in
                          a planned new database. However, an implementation date for the new
                          database has not been determined.

                          The Border Patrol stations and POEs we visited also kept detention and
                          transportation logs for apprehended juvenile aliens in differing, non-
                          standardized formats. For example, the POE at Nogales, AZ maintains a
                          separate, handwritten log for juveniles on site. Border Patrol stations in the
                          San Diego sector also had individual logbooks but they did not separately
                          identify juveniles from adult aliens.

                          Consistent and uniform documentation of transportation and detention of all
                          juveniles in DHS custody will ensure accountability for the safety and
                          treatment of such juveniles. Standard procedures to document the
                          transportation and detention of detained juveniles should be implemented.
                          We are closing Recommendation 4 of the 2001 DOJ OIG Report Number I-
                          2001-009 and issuing the equivalent recommendation in this report.

51
  In our A file review, these two forms were overwhelmingly not included in the juveniles’ A files. We reviewed A files
for 96 detained juveniles apprehended in calendar year 2004. Of the 96 detained juvenile aliens, Form G-391 was in
only one A file and Form I-216 was in only six A files.


                                        A Review of DHS’ Responsibilities for Juvenile Aliens

                                                              Page 30
            We recommend that the Undersecretary, Border and Transportation Security:

                   Recommendation #8: Implement procedures that require juvenile
                   transportation and detention custodial records that provide sufficient
                   detail and accountability for all juveniles apprehended by DHS.

            Escorting Juveniles Until Release to a Sponsor

            DHS has taken action to resolve and close Recommendation 5 of the DOJ
            OIG report, which provided:

                   The INS should implement procedures that require INS
                   officers, or designated non-INS personnel under contract with
                   the INS, to escort and maintain physical custody of all
                   juveniles until the juvenile is released to a sponsor.

            According to a DRO official, the DHS juvenile escort policy was revised and
            became effective on August 29, 2002. The revised escort policy is currently
            an appendix to the Deportation Officer’s Field Manual. The revised escort
            policy will be a part of the updated Juvenile Protocol Manual, according to the
            DRO official. This policy states that escorts of unaccompanied juveniles
            require a “minimum of one escort” and that one DHS employee of the same
            gender of a juvenile has to be present during the escort. We consider the
            DHS portion of this recommendation resolved and closed.


Management Comments and OIG Analysis

            In its response, dated September 12, 2005, BTS agreed that opportunities exist
            to improve its processes for apprehending, processing, transporting, and
            detaining juvenile aliens. BTS stated that the OIG report was accurate and the
            resultant recommendations were sound and represented operational ways to
            better address its approach to juveniles.

            BTS said that overall, it was already taking action to address several
            recommendations. However, it did not specifically comment on any
            recommendations, including the five for which it is responsible. CBP
            concurred with and intends to take action to address the three
            recommendations within its purview. ICE did not substantively address the
            three recommendations for which it is responsible (CBP and ICE are jointly
            responsible for two recommendations). In its response, BTS did not
            specifically concur with any of the recommendations; CBP concurred with 3
            of the 8 recommendations; and, ICE did not specifically concur with any of


                        A Review of DHS’ Responsibilities for Juvenile Aliens

                                              Page 31
the recommendations. We consider 1 of the 8 recommendations resolved and
7 recommendations unresolved. All recommendations remain open.

CBP generally agreed with the report’s information, findings, and
recommendations. CBP recognized that certain aspects of its processing,
monitoring, and housing of juvenile aliens could be improved. CBP noted
that the report failed to discuss that increasing numbers of juveniles are
“guides” for illegal alien smugglers. While we obtained evidence that this
practice occurs in Border Patrol sectors, specifically in the San Diego and
Tucson sectors, our review did not encompass criminal prosecutions of
juveniles (or aliens claiming to be juveniles). Instead, we focused on the
administrative processes for addressing juvenile’s immigration violations.

ICE concurred with the content of most of the report. ICE’s most significant
comment was that the report should include additional information related to
DHS’ efforts in requesting that ORR provide appropriate bed space within
reasonable distances where juveniles are apprehended. We obtained evidence
of DHS’ efforts to request that ORR provide appropriate bed space within
reasonable distances from points of apprehension. Particularly, DRO
attempted to address challenges stemming from transferring juveniles from
DHS to ORR custody by directing the issuance of at least five letters, between
October 8, 2003, and May 27, 2004, from DHS to ORR. These letters
addressed issues emanating from the March 2003 reorganization of federal
responsibilities for juvenile aliens, including transporting juveniles to remote
and distant facilities and securing available bed space in convenient locations.
However, we could not obtain evidence as to ORR’s operational responses to
these letters.

Overall, BTS’ responses to our recommendations did not uniformly illustrate
the corrective actions it intends to take. Specifically, we are concerned about
whether BTS recognizes the importance of negotiating an MOU with ORR
and the positive impact that would have on the transportation and detention of
juvenile aliens. We were also unable to discern the corrective action ICE
intends to take, especially for establishing consistent and uniform
documentation for the transportation and detention of juveniles.

CBP submitted technical comments on specific statements and facts in the
report. We evaluated CBP’s technical comments on an individual basis and
modified our report, as appropriate.

Below are management comments and OIG analysis of management
comments for each recommendation.




            A Review of DHS’ Responsibilities for Juvenile Aliens

                                  Page 32
                            Recommendation 1: Formally request that EOIR ensure that the lists of free
                            legal services providers are current and accurate. Updated lists should be
                            distributed on a regular basis to all Border Patrol stations and POEs.

                            BTS Response: BTS did not provide a response to the recommendation.

                            OIG Evaluation: We consider the recommendation unresolved and open
                            because no response to the recommendation was provided.

                            Recommendation 1 – Unresolved - Open

                            Recommendation 2: Formulate and disseminate official policies, applying to
                            all CBP facilities that hold juvenile aliens, which stipulate the exceptions to
                            the time guidelines on holding juveniles; the deadlines and formats for
                            notification; and, specific officials who are authorized to approve extensions.

                            BTS Response: CBP concurred with this recommendation. CBP stated that
                            its two relevant Offices - Office of Field Operations (OFO) and Office of the
                            Border Patrol (OBP) – issued guidelines that were sufficient to close its
                            responsibility for this recommendation.

                            The relevant OFO policy was issued on March 9, 2004, and was obtained
                            during our review. 52 OFO stated it would transmit the policy again to all
                            POEs and include it in morning “muster” briefings given to CBP officers
                            stationed at POEs. This policy included guidance to POEs to notify the
                            applicable Port Director for detentions of any aliens, including juveniles, in
                            secure areas that exceeded 12 hours. In addition, the policy stipulated that the
                            Director, Field Operations, should be notified through the chain of command
                            when detention of any alien exceeded 24 hours. This process is designed so
                            that the Director, Field Operations, can notify the counterpart in DRO to
                            resolve the situation when necessary.

                            The relevant OBP policy was issued on September 2, 2005, after our draft
                            report was issued to BTS. This interim guidance states that “unaccompanied
                            juveniles” should not be held longer than 24 hours. CBP stated that the
                            interim guidance will be effective until “official CBP detention guidelines”
                            are promulgated.

                            OIG Evaluation: The OFO response is sufficient to address the reviewing
                            and approving of decisions to hold juvenile aliens at POEs for more than 24
                            hours. The OFO policy is applicable to all aliens, whether juveniles or adults.



52
     Secure Detention Procedures at Ports of Entry, March 9, 2004.


                                          A Review of DHS’ Responsibilities for Juvenile Aliens

                                                                Page 33
                        However, the interim guidance issued by OBP on September 2, 2005, does not
                        cover accompanied juvenile aliens, but only unaccompanied juveniles. 53 In
                        addition, the interim guidance does not address the process for reviewing and
                        approving the holding of juveniles for more than 24 hours at the Border Patrol
                        sector or OBP Headquarters level. Conversely, the referenced OFO policy
                        entails Port Director approval of all detentions in secure areas “that reach or
                        exceed 12 hours” and provisions for notifying the Director, Field Operations,
                        when an alien is held at the POE for “24 hours or more.”

                        Please provide us with a copy of the updated policy for OBP that includes
                        accompanied juveniles aliens and entails notification procedures within the
                        OBP chain of command.

                        Recomme ndation 2 – Resolved - Open

                        Recommendation 3: Consider the costs and benefits for DRO to obtain
                        additional bed space in facilities with family unity capacity. If determined to
                        be beneficial, evaluate and determine the most advantageous locations for
                        family unity facilities based on factors including volume of juvenile
                        apprehensions and proximity to border areas or POEs.

                        BTS Response: Neither BTS nor ICE provided responses to the
                        recommendation.

                        OIG Evaluation: We consider the recommendation unresolved and open
                        because no response to the recommendation was provided.

                        Recommendation 3 – Unresolved - Open

                        Recommendation 4: Propose to ORR that ORR and DRO jointly evaluate
                        apprehension rates by geographic area and provide adequate bed space near
                        significant areas of apprehensions in order to minimize DHS initial interstate
                        transfers of unaccompanied juveniles.

                        BTS Response: BTS did not provide a response to the recommendation. ICE
                        proposed a technical change that the recommendation should be ame nded to
                        read, “Propose that DRO continue to propose that ORR adequately address
                        and resolve these issue…”

                        OIG Evaluation: We consider the recommendation unresolved and open
                        because BTS did not respond to the recommendation. Regarding the proposed

53
   Aguilar, David V., Memorandum for All Chief Patrol Agents, Interim Guidance Regarding Unaccompanied Juveniles
in Custody, September 2, 2005.



                                      A Review of DHS’ Responsibilities for Juvenile Aliens

                                                            Page 34
ICE change, this recommendation is designed to elevate the proposal to ORR
to the DHS Under Secretary level. Conversely, the proposed language retains
these actions at the DRO level. The recommendation was not changed.

Recommendation 4 – Unresolved - Open

Recommendation 5: Request ORR to enter into an MOU with DRO on
respective responsibilities for unaccompanied juvenile aliens. The MOU
should contain specific requirements for releases, including mandatory record
checks on potential juvenile sponsors.

BTS Response: BTS did not provide a response to the recommendation.

OIG Evaluation: We consider the recommendation unresolved and open
because no response to the recommendation was provided.

Recommendation 5 – Unresolved - Open

Recommendation 6: Consider formally designating the position of National
Juvenile Coordinator as the DHS lead on juvenile alien policy and the official
DHS point of contact on juvenile alien policy for other agencies and
organizations.

BTS Response: BTS did not provide a response to the recommendation.

CBP did not concur with the recommendation. According to CBP, it is not
appropriate for an official at one agency to set policy unilaterally that impacts
other agencies. CBP further asserts that it would be more appropriate to
assign responsibility to coordinate juvenile activities among all agencies to an
official at the Department level.

OIG Evaluation: We consider the recommendation unresolved and open
because no BTS response to the recommendation was provided.

Regarding CBP’s comment, the recommendation specifies that the position of
National Juvenile Coordinator would be re-designated as “the DHS lead on
juvenile alien policy.” The spirit of this recommendation would elevate the
responsibility for coordinating juvenile alien activities to an official at the
Department level. This clarification alleviates CBP’s concern with the
recommendation.

Recommendation 6 – Unresolved - Open




            A Review of DHS’ Responsibilities for Juvenile Aliens

                                  Page 35
Recommendation 7: Establish an ongoing training program to ensure that all
CBP and ICE employees whose duties bring them into contact with juvenile
aliens understand and comply with the terms of Flores. This training should
be standardized in format and participation should be centrally documented.

BTS Response: CBP concurred with the recommendation. Within CBP,
OFO stated that relevant training on the handling of juveniles was included in
its “Unified Cross-Training of CBP officers” training course since its
inception. However, CBP did not provide a date for when this training
commenced. Nonetheless, this training includes lessons and distributed
materials on Flores. CBP also plans to include processing of juveniles in an
“Advanced Admissibility Course” that is currently being developed. In
addition, CBP said that all training of CBP officers is tracked in a “central
database maintained by CBP.”

The OBP “training department” will work to determine the best way to
provide Flores training for Border Patrol agents after graduation from the
Border Patrol academy. However, OBP did not specify how it would track
participation in the training in a centralized manner. CBP specified that the
above OFO and OBP training programs would be implemented by March 31,
2006.

ICE did not provide a response to the recommendation.

OIG Evaluation: We concur with CBP’s intent to establish an ongoing,
standardized training program to ensure that all relevant OFO and OBP
employees understand and comply with Flores. We acknowledge that CBP is
taking significant steps to ensure that ongoing participation in training occurs
for all CBP employees whose duties bring them into contact with juvenile
aliens. However, CBP’s response does not include a description of the
frequency with which CBP employees would participate in Flores-related
training. In addition, we need additional information on the “central database
maintained by CBP” that tracks training participation to verify that it is
consistently and centrally documented.

We consider the recommendation unresolved because ICE did not provide a
response to the recommendation. The recommendation is open until CBP and
ICE provide additional information on the Flores training for their employees
and on the methods for centrally tracking participation in this training.

Recommendation 7 – Unresolved - Open




            A Review of DHS’ Responsibilities for Juvenile Aliens

                                  Page 36
                            Recommendation 8: Implement procedures that require juvenile
                            transportation and detention custodial records that provide sufficient detail
                            and accountability for all juveniles apprehended by DHS.

                            BTS Response: CBP concurred with the recommendation and said that it
                            already has procedures in place to address the recommendation.

                            OFO procedures for recording the detention of all aliens, including juveniles,
                            at POEs are enumerated in the March 9, 2004, OFO directive. 54 This directive
                            mandated that each POE maintain a “detention log (manually and/or by
                            computer)” for all detainees placed in a POE detention cell. OBP’s interim
                            guidance, dated September 2, 2005, requires that each Border Patrol station
                            maintain a “detention log (manually or electronically) for all unaccompanied
                            juveniles.” Both the OFO directive and the OBP guidance specify the types of
                            identifying and custody information that should be captured.

                            ICE did not provide a response to the recommendation.

                            OIG Evaluation: We concur with the issuance of updated CBP policies to
                            standardize juvenile detention logs. The OFO and OBP policies designated in
                            CBP’s response address the maintaining of detention logs for juvenile aliens
                            held at POEs and Border Patrol stations. However, the OFO policy should
                            clarify that a standardized format for detention logs related to juvenile aliens
                            should be maintained at each POE and should mandate that juvenile detention
                            logs should be separately maintained from detention logs for adult aliens.
                            In addition, OBP’s guidance does not address the standardization of formats
                            for the logs. The OBP guidance also only covers unaccompanied juvenile
                            aliens and is not applicable to all juvenile aliens. Lastly, the OBP response
                            does not specify that juvenile detention logs should be separately maintained
                            from detention logs for adult aliens.

                            We consider the recommendation unresolved because ICE did not provide a
                            response to the recommendation. The recommendation is open until CBP
                            provides updated policies applying to OFO and OBP for standardizing and
                            separating juvenile custodial records; until ICE provides updated, responsive
                            policies for standardizing and separating juvenile custodial records; and, after
                            we have an opportunity to evaluate the extent to which these records provide
                            sufficient detail and accountability for all juveniles held by CBP and ICE.

                            Recommendation 8 – Unresolved - Open


54
     Secure Detention Procedures at Ports of Entry, March 9, 2004.




                                          A Review of DHS’ Responsibilities for Juvenile Aliens

                                                                Page 37
Appendix A
Purpose, Scope, and Methodology



Purpose, Scope, and Methodology
                          The purpose of this review was to determine the effectiveness of the
                          coordination between CBP and ICE after CBP apprehends and initially holds
                          juvenile aliens. Our review included the process by which CBP informs ICE
                          that a juvenile alien was apprehended, the process for transferring the juvenile
                          alien to ICE DRO custody, and the effectiveness of the current system for
                          transferring care and custody of unaccompanied juvenile aliens to HHS. In
                          addition, we assessed the progress of relevant DHS components in
                          implementing three open recommendations from a prior DOJ OIG report. 55

                          We reviewed the current organizational structure and objectives for the
                          handling of juvenile aliens by DHS, including the roles and responsibilities of
                          the two agencies - CBP and ICE - that have primary functions for
                          apprehending, processing, transporting, and detaining juvenile aliens. Our
                          review included an analysis of the process by which CBP informs ICE DRO
                          that a juvenile alien has been apprehended, the process for transferring the
                          juvenile to DRO custody, and the process of transferring custody of
                          unaccompanied juveniles to ORR. We examined the length of time juvenile
                          aliens were in DHS custody, both at CBP and DRO facilities. We also
                          reviewed the progress of DHS in implementing three open recommendations
                          concerning juvenile aliens from a prior DOJ OIG report, Unaccompanied
                          Juveniles in INS Custody.56

                          We did not evaluate ORR policies and procedures that are effective after
                          unaccompanied juvenile aliens are transferred to ORR custody, nor did we
                          review any DRO or ORR juvenile detention facilities other than the physical
                          descriptions of initial detention facilities enumerated in the report.

                          At the national level, we interviewed CBP and ICE management and program
                          officials at CBP and ICE headquarters. These interviews included the DRO
                          National Juvenile Coordinator and officials representing CBP personnel at
                          POEs and the Border Patrol. We interviewed officials at ORR, including the
                          director of the Division of Unaccompanied Children’s Services. We also
                          interviewed officials with expertise in matters involving juvenile aliens from a
                          non-governmental organization. We obtained data on national juvenile
                          apprehensions and program budgetary allocations for FY 2003 and FY 2004.



55
   Unaccompanied Juveniles in INS Custody, Department of Justice, Office of the Inspector General, I-2001-009,
September 28, 2001.
56
   DOJ OIG Report Number I-2001-009.


                                        A Review of DHS’ Responsibilities for Juvenile Aliens

                                                              Page 38
Appendix A
Purpose, Scope, and Methodology


                          Our CBP fieldwork entailed reviewing documents and information,
                          conducting interviews, and touring appropriate facilities in Detroit, MI; New
                          York, NY; San Diego, CA; and Tucson, AZ. We visited the land POE at the
                          Blue Water Bridge in Port Huron, MI; the air POE at JFK International
                          Airport in New York, NY; the land POE at San Ysidro, CA; and the land POE
                          at Nogales, AZ. We visited three of the 20 Border Patrol sectors: Detroit, San
                          Diego, and Tucson. In each, we visited the Border Patrol sector headquarters
                          and three stations. We interviewed managers and line Border Patrol agents in
                          each sector and managers and line CBP officers at each POE.

                          For ICE, we visited four of the 21 Field Offices of ICE’s DRO: Detroit, MI;
                          New York, NY; Phoenix, AZ; and San Diego, CA. We interviewed the FOJC
                          at each of the four locations as well as the Field Office Director and other
                          managers overseeing DRO handling of juvenile aliens.

                          We reviewed 174 Alien files for juvenile aliens apprehended by CBP or ICE
                          in calendar year 2004. Alien files, also known as A files, are the central
                          repositories for immigration information on individual aliens in the United
                          States. Our sample of 174 A files included 114 unaccompanied juveniles and
                          57 accompanied juveniles. 57 The average age was 12.6 years, ranging from 7
                          months to 17 years old. We reviewed the A files of 63 female and 111 male
                          juveniles. Of the 174 A files, 40 juveniles were citizens of Guatemala, 21 of
                          Mexico, 21 of El Salvador, 15 of Honduras, and 11 of Jordan. There were
                          smaller numbers of citizens of other countries. 58

                          We analyzed data from the Deportable Alien Control System (DACS) and
                          CBP’s Enforcement Case Tracking System (ENFORCE). 59 We evaluated the
                          data in these two systems in order to track the dates and other relevant
                          information regarding the apprehension, processing, transportation, and
                          detention of juvenile aliens by CBP and ICE. We also analyzed data,
                          provided by EOIR, from its Automated Nationwide System for Immigration
                          Review (ANSIR) case management database.

                          We examined relevant statutes and regulations, including the Homeland
                          Security Act of 2002 60 and Title 8 of the Code of Federal Regulations. We
                          reviewed policies and procedures emanating from Flores. 61 We evaluated
                          policies and procedures that cover the handling of juvenile aliens by CBP and
57
   We could not determine whether three juvenile aliens in our A file sample were unaccompanied or accompanied.
58
   Our sample of 174 A files for juvenile aliens was judgmental and based on available files. Data could not be projected
to the universe of juvenile aliens apprehended in 2004.
59
   DACS captures data on juveniles who are apprehended and under removal proceedings. ENFORCE captures specific
apprehension data on juveniles, such as date and location of apprehension and initial immigration charges.
60
   P.L. 107-296.
61
   Flores, Stipulated Settlement Agreement, August 12, 1996.


                                         A Review of DHS’ Responsibilities for Juvenile Aliens

                                                               Page 39
Appendix A
Purpose, Scope, and Methodology


                           ICE, including relevant DHS policy memoranda, the Juvenile Protocol
                           Manual, and other guidance. 62 We reviewed documentation pertinent to the
                           responsibilities of CBP, ICE, and ORR, including the Statement of Principles,
                           the interagency agreement between DHS and HHS. We analyzed logbooks
                           and other records regarding the apprehension, transportation, and detention of
                           juvenile aliens by CBP and ICE, including relevant immigration forms.

                           We conducted our review between September 2004 and February 2005, and
                           reviewed supplemental data up to June 2005. Our review was conducted
                           under the authority of the Inspector General Act of 1978, as amended, and
                           according to the Quality Standards for Inspections issued by the President’s
                           Council on Integrity and Efficiency.




62
     Detention and Removal Officer’s Field Manual, Appendix 11-4: Juvenile Protocol Manual, November 2003.




                                         A Review of DHS’ Responsibilities for Juvenile Aliens

                                                               Page 40
Appendix B
Management Response to Draft Report




                                      A Review of DHS’ Responsibilities for Juvenile Aliens

                                                            Page 41
Appendix B
Management Response to Draft Report




                                      A Review of DHS’ Responsibilities for Juvenile Aliens

                                                            Page 42
Appendix B
Management Response to Draft Report




                                      A Review of DHS’ Responsibilities for Juvenile Aliens

                                                            Page 43
Appendix B
Management Response to Draft Report




                                      A Review of DHS’ Responsibilities for Juvenile Aliens

                                                            Page 44
Appendix B
Management Response to Draft Report




                                      A Review of DHS’ Responsibilities for Juvenile Aliens

                                                            Page 45
Appendix B
Management Response to Draft Report




                                      A Review of DHS’ Responsibilities for Juvenile Aliens

                                                            Page 46
Appendix B
Management Response to Draft Report




                                      A Review of DHS’ Responsibilities for Juvenile Aliens

                                                            Page 47
Appendix C
Major Contributors to this Report




                          Melissa M. Howard, Ph.D., Chief Inspector, Department of Homeland
                          Security, Office of Inspections and Special Reviews

                          Andrew B. Hoffman, Inspector, Department of Homeland Security, Office of
                          Inspections and Special Reviews

                          Vivian Dupuy, Inspector, Department of Homeland Security, Office of
                          Inspections and Special Reviews

                          Jennifer A. Lindsey, Inspector, Department of Homeland Security, Office of
                          Inspections and Special Reviews




                                      A Review of DHS’ Responsibilities for Juvenile Aliens

                                                            Page 48
Appendix D
Summary of Flores Stipulated Settlement Agreement


                         Reno v. Flores, a class action lawsuit, was filed against the INS challenging
                         the agency's arrest, processing, detention, and release of juveniles in its
                         custody. The case involved unaccompanied minors who entered the United
                         States illegally and were subsequently detained by the U.S. government. In
                         August 1996, the parties to the lawsuit negotiated a settlement, called the
                         Flores Settlement Agreement, on several issues, including the detention,
                         release, and treatment of juveniles in INS custody. 63

                         After a juvenile’s apprehension, the INS agreed to abide by the following
                         stipulations for processing juveniles held in its custody:

                             •    Expeditiously process apprehended juvenile aliens;
                             •    Promptly provide each detained juvenile with
                                      a) A Form I-770, Notice of Rights and Request for Disposition,
                                      b) An explanation of the right of judicia l review,
                                      c) A list of free legal services available in the district, and
                                      d) A Notice of Custody Determination form describing the right
                                          to a bond redetermination hearing if applicable; and
                             •    Afford a bond redetermination hearing before an immigration judge to
                                  juveniles in removal proceedings unless the juvenile indicates refusal
                                  of such a hearing on the Notice of Custody Determination form.

                         The INS agreed to abide by the following conditions for detaining juveniles:

                             •    Place detained juveniles in the least restrictive setting appropriate to
                                  the juvenile’s age and circumstances;
                             •    Hold juvenile aliens in safe and sanitary facilities that provide access
                                  to toilets and sinks, drinking water and food as appropriate, medical
                                  assistance if necessary, adequate temperature control and ventilation,
                                  adequate supervision, and contact with family members who were
                                  arrested with the juvenile;
                             •    Segregate unaccompanied juveniles from unrelated adults while in
                                  custody, including during transportation. Where such segregation is
                                  not immediately possible, unaccompanied juveniles cannot be detained
                                  with unrelated adults for more than 24 hours;
                             •    Release juvenile aliens to an appropriate sponsor if detention is not
                                  deemed necessary to secure the juvenile’s appearance for immigration
                                  proceedings or to ensure the juvenile’s safety; and



63
  Flores Stipulated Settlement Agreement, August 12, 1996, and Detention and Removal Officer’s Field Manual,
Appendix 11-4: Juvenile Protocol Manual, November 2003.


                                       A Review of DHS’ Responsibilities for Juvenile Aliens

                                                             Page 49
Appendix D
Summary of Flores Stipulated Settlement Agreement


                            •    Transfer a juvenile alien to an appropriate placement facility within 72
                                 hours to five days, as appropriate.




                                      A Review of DHS’ Responsibilities for Juvenile Aliens

                                                            Page 50
Appendix E
Statement of Principles Between the Department of Homeland Security and the Department of Health
and Human Services, Unaccompanied Alien Children Program




                                       A Review of DHS’ Responsibilities for Juvenile Aliens

                                                             Page 51
Appendix E
Statement of Principles Between the Department of Homeland Security and the Department of Health
and Human Services, Unaccompanied Alien Children Program




                                       A Review of DHS’ Responsibilities for Juvenile Aliens

                                                             Page 52
Appendix F
Report Distribution




                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Under Secretary, Border and Transportation Security
                      Commissioner, Customs and Border Protection
                      Assistant Secretary, Immigration and Customs Enforcement
                      Chief of Staff
                      Assistant Secretary, Public Affairs
                      General Counsel
                      Executive Secretariat
                      Chief Security Officer
                      DHS OIG Liaison
                      BTS Audit Liaison
                      CBP Audit Liaison
                      ICE Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS Program Examiner

                      Department of Health and Human Services

                      Inspector General

                      Congress

                      Congressional Oversight and Appropriations Committees as Appropriate




                                 A Review of DHS’ Responsibilities for Juvenile Aliens

                                                       Page 53
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
